CERTIFICATE OF COMPLIANCE
No.

SHAQUERE MYLESHIA GRAY, Co-Administratrix
of the Estate of Gregory Tremaine Miller; HANNAH
LASHA HOZE, Co-Administratrix of the Estate of
Gregory Tremaine Miller,

Petitioners,
Vv.

ALABAMA GREAT SOUTHERN RAILROAD
COMPANY,

Respondent.
As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains 7036
words, excluding the parts of the petition that are

exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing
is true and correct.

Executed on December 14, 2020...
£

CE ae
